No. 20A136
In The
Supreme Court of the United States
SOUTH BAY UNITED PENTECOSTAL CHURCH, AND
BISHOP ARTHUR HODGES III,

Applicants,

v.
GAVIN NEWSOM, in his official capacity as the Governor of California; XAVIER
BECERRA, in his official capacity as the Attorney General of California, SANDRA
SHEWRY, in her official capacity as Acting California Public Health Officer, WILMA
J. WOOTEN, in her official capacity as Public Health Officer, County of San Diego,
HELEN ROBBINS-MEYER, in her official capacity as Director of Emergency Services,
County of San Diego, and WILLIAM D. GORE, in his official capacity as Sheriff,
County of San Diego
Respondents.
To the Honorable Elena Kagan, Associate
Justice of the United States Supreme Court and
Circuit Justice for the Ninth Circuit
Reply in Support of Emergency Application for Writ of Injunction
Relief Requested before Sunday, January 31, 2021
THOMAS BREJCHA
PETER BREEN
CHRISTOPHER A. FERRARA
THOMAS MORE SOCIETY
309 W. Washington
Street, Suite 1250
Chicago, IL 60606
(312) 782-1680

CHARLES S. LiMANDRI
Counsel of Record
PAUL M. JONNA
JEFFREY M. TRISSELL
LiMANDRI & JONNA LLP
P.O. Box 9120
Rancho Santa Fe, CA
92067
(858) 759-9930
cslimandri@limandri.com

HARMEET K. DHILLON
MARK P. MEUSER
DHILLON LAW GROUP INC.
177 Post Street, Suite 700
San Francisco, CA 94108
(415) 433-1700

Counsel for Applicants South Bay United Pentecostal Church,
and Bishop Arthur Hodges III

1

TABLE OF CONTENTS
TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE
SUPREME COURT AND CIRCUIT JUSTICE FOR THE NINTH CIRCUIT: ........... 1
REPLY ARGUMENT..................................................................................................... 6
1.

South Bay is Likely to Succeed on the Merits .......................................... 6

2.

The Other Preliminary Injunction Factors Favor South Bay ................ 9

CONCLUSION............................................................................................................. 18

TABLE OF AUTHORITIES
CASES
Burfitt v. Newsom,
Kern Cnty. No. BCV-20-102267 (Cal. Super. 2020)

1, 2, 5, 9, 14, 19

Church of the Lukumi Babalu Aye, Inc. v. City of Hialeah,
508 U.S. 520 (1993)

7
16

Commonwealth v. Beshear,
981 F.3d 505 (6th Cir. 2020)
Daubert v. Merrell Dow Pharmaceuticals, Inc.,
509 U.S. 579 (1993)

7
15

Employment Div. v. Smith,
494 U.S. 872 (1990)

17, 18

Everson v. Bd. of Ed. of Ewing Twp.,
330 U.S. 1 (1947)

17

Harvest Rock Church, Inc. v. Newsom,
982 F.3d 1240 (9th Cir. 2020)

Harvest Rock Church, Inc. v. Newsom,
16
No. EDCV 20-6414 JGB (KKx), 2020 WL 7639584 (C.D. Cal. Dec. 21, 2020)
16

In re Abbott,
956 F.3d 696 (5th Cir. 2020)
i

TABLE OF AUTHORITIES—Continued
CASES
Kedroff v. St. Nicholas Cathedral of Russian Orthodox Church in N. Am.,
344 U.S. 94 (1952)

15

Korematsu v. United States,
323 U.S. 214 (1944)

16
1, 10

McCreary Cty., Ky. v. Am. Civil Liberties Union of Ky.,
545 U.S. 844 (2005)
Nken v. Holder,
556 U.S. 418 (2009)

10

People v. Calvary Chapel San Jose,
No. 20CV372285, 2020 WL 7872811 (Cal. Super. Dec. 4, 2020)

16

Planned Parenthood v. Abbott,
__ S. Ct. __, 2021 WL 231539 (2021)

16

Roman Catholic Diocese of Brooklyn v. Cuomo,
141 S. Ct. 63 (2020)

1, 7, 9, 13, 14, 15, 16, 17

S. Bay United Pentecostal Church v. Newsom,
140 S. Ct. 1613 (2020)

6

Spell v. Edwards,
962 F.3d 175 (5th Cir. 2020)

18

Trump v. Hawaii,
138 S. Ct. 2392 (2018)

16

United States v. Bell,
464 F.2d 667 (2d Cir. 1972)

18
6, 9

Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7 (2008)

ii

TABLE OF AUTHORITIES—Continued
STATUTES
Fed. R. Evid. 702

7

OTHER AUTHORITIES
Michael W. McConnell, Freedom from Persecution or Protection of the
Rights of Conscience?,
39 WM. & MARY L. REV. 819 (1998)

iii

15

TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE
SUPREME COURT AND CIRCUIT JUSTICE FOR THE NINTH CIRCUIT:
This Court has made clear that “reasonable observers have reasonable
memories, and our precedents sensibly forbid an observer to turn a blind eye to the
context[.]” McCreary Cty., Ky. v. Am. Civil Liberties Union of Ky., 545 U.S. 844, 866
(2005) (quotations omitted). As already suggested by proposed amicus Becket Fund
for Religious Liberty, the context here “scuppers” California’s attempt to defend its
total ban on indoor worship under the required strict scrutiny. Brief of Becket Fund
for Religious Liberty, as Amicus Curiae, at 9 (“Becket Br.”).
On December 10, 2020, a California Superior Court, instructed by this Court’s
decision in Brooklyn Diocese, granted Father Trevor Burfitt, who oversees five
Catholic congregations, a preliminary injunction against enforcement of Governor
Newsom’s total indoor worship ban under his Blueprint for a Safer Economy
(Blueprint) and the overlapping “Regional Stay at Home Order” (Regional Order).
The latter was based on a mysteriously calculated “metric” of ICU bed availability
with the underlying data at that time being withheld from the public. Burfitt v.
Newsom, Kern Cnty. No. BCV-20-102267 (Cal. Super. 2020) (App. K).
Unpersuaded by California’s data-free assertions on the supposedly peculiar
viral danger of religious versus commercial gatherings indoors, the court in Burfitt,
mirroring this Court’s finding in Brooklyn Diocese—on the same core facts—found as
follows:
However, Defendants’ efforts to distinguish the permitted
secular activity from the prohibited religious activity are
not persuasive. For example, Defendants contend that the
1

congregations of shoppers in big-box stores, grocery stores,
etc., are not comparable to religious services in terms of
crowd size, proximity, and length of stay. To the contrary,
based on the evidence presented (or lack thereof) and
common knowledge, it appears that shoppers at a Costco,
Walmart, Home Depot, etc. may—and frequently do—
congregate in numbers, proximity, and duration that is
very comparable to worshippers in houses of worship.
Defendants have not convincingly established that the
health risks associated with houses of worship would be
any different than “essential businesses” or “critical
infrastructure,” assuming the same requirements of social
distancing and the wearing of masks were applied across
the board.
Id.
Presented with no real evidence to the contrary, but only conclusory declarations
from California health bureaucrats unsupported by verifiable data—the same nonevidence presented here—the Burfitt court prohibited California from imposing on
churches any capacity limits greater than those on “ ‘essential businesses’ or ‘critical
infrastructure’—includ[ing] big-box retail stores, grocery stores, home improvement
stores, hotels, airports, train stations, bus stations, movie production houses,
warehouses, factories, schools, and a lengthy list of additional businesses.” Id.
After waiting more than a month without seeking an emergency stay of the
Burfitt court’s injunction, California filed an appeal followed by a “Writ of
Supersedeas” in California’s Fifth Appellate District that likewise did not seek an
emergency stay. The appellate court, however, sua sponte stayed the injunction
temporarily (pending Father Burfitt’s opposition to the Writ) after reviewing
California’s verified Petition, the very first sentence of which contains the following
demonstrably false claim of a dire health emergency: “California is experiencing the
2

worst surge of the COVID-19 pandemic, and its health care system is on the brink of
collapse.” 1 Only three days later, on January 25, 2021, California rescinded its
“Regional Stay at Home Order.” App. H-4. California’s health system was not “on the
brink of collapse”—for lack of ICU beds or otherwise.
Nor is California facing its “darkest hour,” as the Ninth Circuit was persuaded
by California’s reckless hyperbole in its briefing there. App. A, p. 2. Quite to the
contrary, once the data underlying the rescinded Regional Order—rescinded only
after California had obtained the Ninth’s Circuit’s decision upholding the total
worship ban in the midst of California’s “darkest hour”—the public learned to its
dismay and growing outrage that, as amicus Becket notes, “That data showed that
projected available ICU capacity statewide will soon be over 15% in all regions of the
State; by mid-February the State projects Southern California will have the most ICU
capacity, with 33.3% available.” Becket Br., 12. 2
Having rescinded the Regional Order, which was supposedly based on the
imminent “collapse” of California’s health care system for lack of ICU beds—a claim
falsified by its own data—California now avers in this Court that “the strain on
California’s hospitals and healthcare workers has been devastating.” The evidence
for this dire assessment is several newspaper articles no different in tenor from those
that appeared during California’s flu epidemic in 2017–2018. Resp. Br., 15–16 &

Verified Petition for Writ of Supersedeas, Burfitt v. Newsom, 5th App. Dist. No. F082235 (Cal. App.
Jan. 20, 2021), https://bit.ly/39ww4GY.
1

Citing Don Thompson, California reveals data used to lift stay-at-home order, AP NEWS (Jan. 25,
2021), https://bit.ly/3t1QwHr.

2

3

nn.25, 26. 3
Also before this Court, California now claims that “in the early summer,
California loosened its initial restrictions and ‘tried . . . allowing in-door worship at
25%’ of the ‘church’s maximum capacity.’ ” Resp. Br., 36 (quoting App. D-1 at 23).
This statement is absolutely false. At the time referenced—the early summer—
California imposed a cap of 25% or 100-persons, whichever was lower. 3-ER-462, 6ER-1211. California further alleges that, “[a]s the court of appeals recognized,” the
singing ban is a “universal prohibition” that “applies to all indoor activities[.]” Resp.
Br., 51–52 (quoting App. A, pp. 49–50). Never mind that California’s own declarants
discuss how music production is allowed to proceed subject to specific safeguards. 3ER-489–90, 498.
With respect to the reopening of churches in Los Angeles County, 4 California—
unable to deny that this is the case—cites the Ninth Circuit’s plain factual error on
this point in an effort to substantiate an obvious falsehood. Resp. Br., 48–49 (citing
App. A, p. 38 n.34). Moreover, California—evincing a continuing lack of candor—now
fails to mention to this Court its acknowledgement below that Los Angeles County’s
December 19, 2020 order plainly and unequivocally permitted churches to open. As

Compare, as to 2017–2018 flu epidemic, Amanda MacMillan, Hospitals Overwhelmed by Flu Patients
Are Treating Them in Tents, TIME (Jan. 18, 2018), http://bit.ly/2YqdA4v (“In California, which has
been particularly hard hit by this season’s flu, several hospitals have set up large ‘surge tents’ outside
their emergency departments to accommodate and treat flu patients. Even then, the LA Times
reported this week, emergency departments had standing-room only, and some patients had to be
treated in hallways”). Examples could be multiplied.
3

Notably, Los Angeles County “has the largest population of any county in the nation—nearly 10
million residents who account for approximately 27 percent of California’s population.” About LA
County, COUNTY OF LOS ANGELES, https://lacounty.gov/government/about-la-county/.

4

4

stated by the county’s press release:
The Los Angeles County Health Officer Order will be
modified today to align with recent Supreme Court rulings
for places of worship. Places of worship are permitted to
offer faith-based services both indoors and outdoors with
mandatory physical distancing and face coverings over
both the nose and mouth that must be worn at all times
while on site. Places of worship must also assure that
attendance does not exceed the number of people who can
be accommodated while maintaining a physical distance of
six feet between separate households.
App. J-1, p.1, ¶ 5; see also App. J-2, J-4. 5 California’s contention below was that Los
Angeles County backtracked on the reopening on December 29, 2020. RB-51. But
even this is false. App. J-3, J-5. All Los Angeles did was clarify that it was only
modifying its own order—the only order its law enforcement personnel actually
enforce—and that it had no authority to supersede California’s order. App. J-3, p. 3,
¶ 2.b. Despite reopening the churches in California’s most densely populated County,
“with the region [Southern California] now in its fourth week of declining
hospitalizations, it was clear Wednesday[, January 28,] that the county was
decisively on its way out of its third surge of the pandemic[.]” 6
California’s habitual hyperbole (at best) and outright fabrications (at worst)
surely figured in the Burfitt court’s rejection of its data-free justifications for banning
worship. California’s statement before this Court that it recognizes the importance of
permitting worship in churches, and “is committed to relaxing [its] restrictions as

5 See Minyvonne Burke, L.A. county reverses ban, allows churches to hold indoor services as California
struggles to contain Covid surge, NBC NEWS (Dec. 22, 2020), http://nbcnews.to/2YvfNeZ.

Rong-Gong Lin II & Luke Money, L.A. has avoided a New York-level COVID-19 hospital meltdown
as conditions improve, LOS ANGELES TIMES (Jan. 28, 2021), http://lat.ms/2YqAYP4.
6

5

soon as public health circumstances allow—as it has in the recent past,” is as
audacious as it is incredible. Resp. Br., 28. In the past year, California has made very
clear that the Free Exercise of religion is a second-class right, and that people of faith
are a disfavored minority. It is indeed California’s “darkest hour”—for houses of
worship. But the lights are on at Costco and Walmart, along with every other place
of business Governor Newsom favors.
As explained below, all preliminary injunction factors favor both South Bay
specifically and all churches generally. With California’s animus towards people of
faith becoming clearer by the day, this Court’s protection is urgently required. This
Court should enjoin California’s total ban on worship in churches, its percentage caps,
and its ban on singing. California has not met its burden to justify anything less. 7
REPLY ARGUMENT
1.

South Bay is Likely to Succeed on the Merits
To begin, “[a] plaintiff seeking a preliminary injunction must establish that he

is likely to succeed on the merits[.]” Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7,
20 (2008). Here, it is undisputable that strict scrutiny applies to California’s
restrictions and that the professed interest in curbing COVID-19 is compelling. See

The Becket Fund notes that this Court could tailor an injunction allowing a 25% occupancy cap.
Becket Br., 14–16. Although non-essential retail is open at 25% in California’s “Purple Tier,” App. G3, p. 2, as California makes clear, grocery stores are open at 50% occupancy. Resp. Br., 14, 41. Further,
as the Burfitt court held, given that all critical infrastructure is open at 100% occupancy “with
modifications” there is no reason based in true scientific evidence, as opposed to mere suppositions by
“experts” without hard data to support their views, that churches should not be treated the same way.
See App. H-3. South Bay believes that critical infrastructure is the key comparator because, as Justice
Kavanaugh opined, “[t]he State cannot assume the worst when people go to worship but assume the
best when people go to work[.]” S. Bay United Pentecostal Church v. Newsom, 140 S. Ct. 1613, 1615
(2020) (Kavanaugh, J., dissenting).
7

6

Roman Catholic Diocese of Brooklyn v. Cuomo, 141 S. Ct. 63, 66–67 (2020) (“Brooklyn
Diocese”). Here, the only question is whether California’s restrictions are “narrowly
tailored,” i.e., whether California’s “interests could be achieved by narrower ordinances
that burdened religion to a far lesser degree” and whether those ordinances “leave[]
appreciable damage” to those interests “unprohibited.” Church of the Lukumi Babalu
Aye, Inc. v. City of Hialeah, 508 U.S. 520, 546–47 (1993).
In opposition to this application, California repeats its pseudo-scientific
“transmission risk analysis” based solely on the ipse dixit of its experts, who cite no
verifiable data comparing the transmission risk of churches versus favored
commercial enterprises. Resp. Br., 30–38. No such data exists. Although California’s
experts have pontificated far longer than New York’s experts, their conclusory
allegations, unsupported by verifiable Rt data, are essentially identical: “Believe us,
churches are dangerous.” 8 As stated in South Bay’s application, and the Becket Fund
in its amicus brief, these declarations are not expert testimony, do not satisfy the
requirements of Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579 (1993),
and are not admissible as expert testimony under Fed. R. Evid. 702. See Appl. Br.,
28; Becket Br., 9 n.8. Perhaps the most conclusive evidence that South Bay can
worship safely are “videos of recent indoor services lasting two hours and involving
singing[.]” Resp. Br., 51 & n.50 (citing Facebook video of Christmas liturgy held after
the Ninth Circuit refused to protect South Bay’s rights). What more does South Bay

Of course, this Court is the best arbiter of California’s argument that New York submitted “virtually
no discussion of comparative risk” in Brooklyn Diocese. See Resp. Br., 38 n.38 (asserting that the record
is significantly different). However, to South Bay, it appears to simply be another falsehood.
8

7

have to do than have a “perfect record” since May 31, 2020—last Pentecost Sunday?
4-ER-689.
California’s transmission risk analysis is absurd on its face, as evidenced by
relevant statistics. The average grocery shopper takes 43 minutes to complete his
shopping. The average trip to the mall, for those aged 18–34, is 158.4 minutes. The
average person makes 1.6 trips to the grocery store every week. And the average
woman spends 399 hours shopping a year. This all adds up, with Americans spending
a collective 37 billion hours per year waiting in retail lines. 5-ER-1136, FER-81–98.
Regardless of averages, under California’s rules, one can take as long as one
likes to finish shopping. This results, as numerous videos and photos demonstrate, in
large gatherings at grocery stores:

5-ER-1136; FER-104–09; 9 see also FER-110–13.
Taking screenshots of and citing RuggerPro (@RuggerPro), TWITTER (Mar. 12, 2020),
https://t.co/PvrWJPnPRj.

9

8

California’s attempt to distinguish “massage and tattoo parlors” and “nail
salons” on the basis that they do not involve “large numbers of people” is another
baseless supposition belied by what the Burfitt court rightly noted is simple “common
sense.” Resp. Br., 42. Masseuses and barbers can see dozens of people, if not hundreds,
in a week. California’s argument that “[e]mployers are [] ‘better positioned to control
their employees’ behavior,” reveals implicit bias against religious leaders. Resp. Br.,
44 (citing App. D-1, p. 20). People of faith respect and obey their pastors, they don’t
ignore them. Employees in factories or offices, on the other hand, might well thumb
their noses at management when the managers aren’t looking.
This Court should make abundantly clear that “there is no world in which the
Constitution tolerates color-coded executive edicts that reopen liquor stores and bike
shops but shutter churches, synagogues, and mosques.” Brooklyn Diocese, 141 S. Ct.
at 72 (Gorsuch, J., concurring) (italics added). Nor is there a world where music and
film production can continue apace, but worshipping God with song is forbidden.
2. The Other Preliminary Injunction Factors Favor South Bay
In addition to a “likel[ihood of] success on the merits,” the issuance of a
preliminary injunction requires that the plaintiff be “likely to suffer irreparable harm
in the absence of preliminary relief, that the balance of equities tips in his favor, and
that an injunction is in the public interest.” Winter, 555 U.S. at 20. Here, no party
disputes that banning worship in churches causes irreparable harm. See Resp. Br.,
54–55; see also App. A, pp. 43–44; App. D-1, p. 12.
With respect to the merged inquiry of the balance of equities and the public

9

interest, see Nken v. Holder, 556 U.S. 418, 435 (2009), there are two main issues: the
harm to all Californians from further spread of COVID-19, and the harm to South
Bay in particular, and all Californians of faith generally, from banning worship in
churches.
With respect to the former, as stated in South Bay’s initial brief, there is no
meaningful evidence that banning worship in churches actually prevents the spread
of COVID-19, and so the analysis favors South Bay. Appl. Br., 32–34. In addition,
California’s and San Diego’s COVID-19 statistics are improving as even California
admits. But as the Becket Fund rightly cautions, this Court should view California’s
statistics with the well-founded suspicion they deserve in view of California’s secrecy
respecting them and its wild claim of a “collapse” in the State’s health care system
only days before it said, in effect, “never mind.” Becket Br., 11–13.
California’s withholding of data to meet its litigation needs, see Appl. Br., at 23
n.13, or other needs, 10 is par for the course for those with “reasonable memories.”
McCreary, 545 U.S. at 866. Even the 0.0% ICU capacity which California touted—a
statistic that lends itself to raw numbers, and which the Ninth Circuit found
compelling—is misleading. Compare RB-12 (“[T]here are no longer any ICU beds in
Southern California”); RB-18, 62 (similar); with App. A, p. 26 (“ICU capacity has
disappeared”), p. 48 (“ICU capacity is non-existent”). “ICU capacity” in California’s
“figure does not measure actual remaining capacity;” rather, “effective” “ICU capacity
See David Siders & Carla Marinucci, ‘It’s all fallen apart’: Newsom scrambles to save California—
and his career, POLITICO (Jan. 11, 2021), http://politi.co/39uhTly (discussing the fast growing recall
initiative); Daniel Payne, Democrat governors signal post-Trump shift to less harsh COVID-19
restrictions, JUST THE NEWS (Jan. 28, 2021), http://bit.ly/3tbwWs3.
10

10

is reduced” based on a formula. 11 Even data that is not expressly “hidden,” remains
either shrouded in mystery or intentionally designed to mislead.
In any event, undisputed data shows that California’s and San Diego’s
statistics are greatly improved. California’s Rt is 0.81, the second best in the country,
and its total new cases are in free-fall. 12

Statistics in San Diego County are equally impressive. 13 The statistics are so good
that, like Nevada, California’s cardrooms are reopening. 14
But—lest one lose sight of the forest for the trees—even if California’s
disingenuous doomsaying were well-founded, that would not alter its obligation
under the Free Exercise Clause to treat religious gatherings on a par with comparable

See Tarryn Mento, High Demand For ICU Capacity, Staff Makes Transferring Patients Difficult,
KPBS (Dec. 14, 2020), http://bit.ly/3cp2B3l.
11

12

See https://rt.live; https://rt.live/us/CA.

See Daily COVID-19 Data Update, SAN DIEGO COUNTY, https://www.sandiegocounty.gov/content/
dam/sdc/hhsa/programs/phs/Epidemiology/COVID-19_Daily_Status_Update.pdf; COVID-19 Deaths in
San Diego County by Date of Death, SAN DIEGO COUNTY, https://www.sandiegocounty.gov/content/
dam/sdc/hhsa/programs/phs/Epidemiology/COVID-19%20Deaths%20by%20Date%20of%20Death.pdf.
13

See LA County cardrooms race to reopen following updated health orders, CALIFORNIA NEWS TIMES
(Jan. 28, 2021), http://bit.ly/2MjNX2F.
14

11

secular gatherings, no matter how severe the pandemic.
With respect to churches, all across California people of faith are suffering. For
many, their faith requires worship within temples consecrated to God—which remain
closed for 99.9% of California’s population under the presently operative Blueprint. 15
For others, California’s recent inclement weather has forced the cancellation of their
outdoor worship services. Starting the day after the Ninth Circuit ruled that “San
Diego County benefits from a year-round warm climate,” such that worshipping in
“parking lots” is “plausibl[e],” App. A, p. 45, San Diego County was hit with three
successive winter storms, which brought rain, hail, snow, and 30 mph wind gusts. 16
As California notes, perhaps the most prominent example of a church holding its
worship services outdoors—due to the threat of criminal prosecution if it uses its
churches—is the Catholic Church. Resp. Br., 55 n.56. But Catholic parishes were
forced to cancel outdoor worship services due to the storms. 17 A review of photos
published by various news media make clear that cancelling outdoor worship services
was the only safe choice. 18 At the time of this brief, San Diego County is under a flash

See Current tier assignments as of January 26, 2021, BLUEPRINT FOR A SAFER ECONOMY,
https://covid19.ca.gov/safer-economy/#county-status.
15

16 See, e.g., Rain, snow arrive Saturday with heavier storm still to come, FOX 5 SAN DIEGO (Jan. 23,
2021), http://bit.ly/3j1juTe; Monica Garske, Winter Storm No. 3 Set to Bring Heavy Rain, Fresh Snow
to San Diego County, NBC 7 SAN DIEGO (Jan. 28, 2021), http://bit.ly/2NF6F5a.

See, e.g., Fr. Raymond Napuli, Upcoming Daily Masses suspended until further notice, MISSION
BASILICA SAN DIEGO DE ALCALÁ (Jan. 25, 2021), https://missionsandiego.flocknote.com/note/10632773
(noting how “recent strong winds have damaged our outdoor Mass set up in the Mission Courtyard”
and so “All Daily Masses are suspended until further notice”).
17

See, e.g., Photos: Winter storm brings rain, snow with more on the way, FOX 5 SAN DIEGO (Jan. 25,
2021), http://bit.ly/3r7VDnF; Karla Rendon-Alvarez, Photos: Winter Storm Batters San Diego County
With Trifecta of Snow, Wind and Rain, NBC 7 SAN DIEGO (Jan. 25, 2021), http://bit.ly/2MD4jDg.
18

12

flood watch. 19 The news reports indicate that the weather is only going to get more
severe. 20
For those Californians whose faith requires them to worship in their churches,
the courts have been particularly unkind—even following Brooklyn Diocese:
o Calvary Chapel San Jose: Calvary Chapel San Jose resumed worship
services on May 31, 2020, and on June 9, 2020, filed a federal civil rights
action alleging that the prohibition on its worship services violated the
First Amendment. Four months later, on October 27, 2020, Santa Clara
County initiated litigation against the church in California Superior
Court. On November 2, the superior court granted the county a
temporary restraining order, with which the church did not comply, and
on December 4—after Brooklyn Diocese—issued a preliminary
injunction. On December 8, the church was held in contempt and
sanctioned $55,000. The district court held that abstention principles
applied and refused to rule on any further motion by the church. A
second contempt trial was heard by the trial court in mid-January. The
injunction remains in effect. Calvary Chapel San Jose v. Cody, No. 20cv-03794-BLF (N.D. Cal. Jun. 9, 2020), and County of Santa Clara v.
Calvary Chapel San Jose, S.C. Cnty. No. 20CV372285 (Cal. Super. Oct.
27, 2020).
o Godspeak Calvary Chapel: After Godspeak Calvary Chapel began
resuming worship services on May 31, 2020, Ventura County initiated
litigation against the church, seeking a preliminary injunction against
the worship services. Following the church’s determination that its faith
did not permit it to follow the trial court’s temporary restraining order,
it was held in contempt and sanctioned. The trial court ultimately
entered a preliminary injunction, and despite Brooklyn Diocese, the
injunction remains in effect. County of Ventura v. Godspeak Calvary
Chapel, Vent. Cnty. No. 56-2020-00544086-CU-MC-VTA (Cal. Super.
Aug. 5, 2020).
o Grace Community Church of the Valley: After the large, Los Angelesbased non-denominational church sued Governor Newsom and Los
Angeles County in California Superior Court, Los Angeles counter-sued
See Flash flood watch, winter weather advisory issued, CBS 8 SAN DIEGO (Jan. 28, 2021),
http://bit.ly/3oznmvA.

19

See Major storm pounding Northern California heads south, CBS NEWS (Jan. 28, 2021),
http://cbsn.ws/3aenVG4.

20

13

and obtained a preliminary injunction against the church worshipping
indoors. When the church continued to worship, Los Angeles evicted the
church from its parking lot and obtained an OSC re: Contempt. A
contempt trial has yet to occur. The case is still pending and the
injunction remains in effect. Grace Community Church of the Valley v.
Newsom, L.A. Cnty. No. 20BBCV00497 (Cal. Super. Aug. 12, 2020), and
County of Los Angeles v. Grace Community Church of the Valley, L.A.
Cnty. No. 20STCV30695 (Cal. Super. Aug. 14, 2020).
o Fr. Trevor Burfitt, SSPX: A Catholic priest overseeing five churches in
four counties sued Governor Newsom and the counties in California
Superior Court, seeking an injunction permitting him to hold worship
services in his churches. Relying on Brooklyn Diocese, the superior court
granted the injunction. Forty-nine days later, and after Los Angeles
came into compliance with the injunction by amending its health order,
the appellate court stayed the injunction, presumably relying on the
Ninth Circuit’s recent opinion in this action. Burfitt v. Newsom, Kern
Cnty. No. BCV-20-102267 (Cal. Super. Sep. 29, 2020); Burfitt v. Newsom,
5th App. Dist. No. F082235 (Cal. App. Jan. 11, 2021).
All of these cases should have been quickly resolved in favor of the various
churches. That they have not, and that churches are still forced to worship under the
threat of criminal and civil penalties, is an appalling act of official cruelty as well as
a blatant, and quite unprecedented, violation of the Free Exercise Clause. Never in
the history of this nation have all believers been forced out of all their houses of
worship by the State on the unproven theory that some of them might transmit a
virus that might be seriously harmful to a small number of people in a population of
many millions—at the same time shopping, office work, mass transit and purchases
of liquor and marijuana are all permitted indoors. This situation could hardly be more
bizarre.
*

*

*

The thesis of California’s supporting amici is that “the Free Exercise Clause

14

was never intended or originally understood to require religious exemptions from
laws that protect public health or safety,” such as “religion-neutral restrictions that
govern all large gatherings[.]” Brief of Americans United for Separation of Church
and State, et al., as Amici Curiae, at 1, 3. But, of course, the restrictions on worship
at issue are not “religion-neutral,” as Brooklyn Diocese makes clear in a teaching that
the Ninth Circuit obdurately refuses to follow even as to a total ban on indoor worship
through the vast State of California while innumerable commercial premises are open
for business.
But the amicus brief raises a question of greater import: In reviewing the
history and purpose of the First Amendment, should it ever be interpreted as
permitting the government to criminalize attending Sunday worship services? The
cases that California’s amici cite concern using religion as a pretext for “tumultuous
petitioning” and “riotous assemblies,” and in that context it may seem reasonable to
prohibit religious assemblies. See generally Michael W. McConnell, Freedom from
Persecution or Protection of the Rights of Conscience?, 39 WM. & MARY L. REV. 819,
835–36 (1998). But even then, in thinking of the history and purpose of the First
Amendment, it “radiates . . . a spirit of freedom for religious organizations, an
independence from secular control or manipulation[.]” Kedroff v. St. Nicholas
Cathedral of Russian Orthodox Church in N. Am., 344 U.S. 94, 116 (1952). Should it
not, therefore, protect without exception the right for churches to hold worship
services? See Employment Div. v. Smith, 494 U.S. 872, 881 (1990) (listing “assembling
with others for a worship service” as the first of quintessential “physical acts”

15

required to freely exercise religion).
On the one hand, this Court has made clear that criminalizing worship in
churches can never be viewed as “neutral,” and so strict scrutiny must always be
applied. Brooklyn Diocese, 141 S. Ct. at 66. And under strict scrutiny, as Justice
Kavanaugh opined, the State may have the authority to impose “very strict
restrictions” so long as it imposes those restrictions on “religious services and secular
gatherings alike.” Id. at 74 (Kavanaugh, J., concurring) (emphasis added).
On the other hand, some lower courts have refused to apply strict scrutiny, both
with respect to California’s ban on worship in churches, Harvest Rock Church, Inc. v.
Newsom, No. EDCV 20-6414 JGB (KKx), 2020 WL 7639584, at *5–6 (C.D. Cal. Dec. 21,
2020), People v. Calvary Chapel San Jose, No. 20CV372285, 2020 WL 7872811, at *4
(Cal. Super. Dec. 4, 2020), and with respect to other religious discrimination.
Commonwealth v. Beshear, 981 F.3d 505, 510 (6th Cir. 2020). And when constitutional
jurisprudence goes too far off the rails, this Court has not shied away from holding that
certain actions are so anathema to the Constitution that they are “objectively unlawful,”
“morally repugnant,” and should be struck down before even engaging in a strict
scrutiny analysis. See Trump v. Hawaii, 138 S. Ct. 2392, 2423 (2018) (abrogating
Korematsu v. United States, 323 U.S. 214 (1944), which held that strict scrutiny was
satisfied in forcible detention of Japanese-Americans); see also Planned Parenthood v.
Abbott, __ S. Ct. __, 2021 WL 231539 (2021) (vacating In re Abbott, 956 F.3d 696 (5th
Cir. 2020), progenitor of the modern “Jacobson deference” doctrine).
In this respect, the clearest command this Court has offered regarding the

16

sanctity of worship services is that “[t]he ‘establishment of religion’ clause of the First
Amendment means at least this: Neither a state nor the Federal Government can . . .
force nor influence a person to go to or to remain away from church against his will[.]”
Everson v. Bd. of Ed. of Ewing Twp., 330 U.S. 1, 15 (1947).
Here, one of the greatest tragedies of the COVID-19 pandemic is that “[i]n far
too many places, for far too long, our first freedom has fallen on deaf ears.” Brooklyn
Diocese, 141 S. Ct. at 69–70 (Gorsuch, J., concurring). “At the flick of a pen,
[government officials] have asserted the right to privilege restaurants, marijuana
dispensaries, and casinos over churches, mosques, and temples.” Id. Even after this
Court ruled in Brooklyn Diocese, California and the lower courts remained
unmoved—ignoring the “straightforward application” of that case by affirming a
“total ban against indoor worship in nearly the entire state[.]” App. L, Special
Concurrence, p. 1.
In light of California’s especially harsh treatment of people of faith since the
beginning of the pandemic, perhaps South Bay should not have been surprised by the
post-remand procedural history of this case. Nevertheless, South Bay was surprised,
as it believed that this Court’s November 25, 2020 ruling essentially meant that it
would be able to celebrate Christmas in church. That both lower courts refused to
respect South Bay’s right to celebrate Christmas in church is a tragedy of immense
proportions that should never have happened. See App. B; App. D; see also Harvest
Rock Church, Inc. v. Newsom, 982 F.3d 1240 (9th Cir. 2020) (O’Scannlain, J.,
dissenting from denial of relief before Christmas). South Bay believes that Everson

17

provides the right test, and should provide a bright-line rule in all contexts. But at
the very least, in this context, that test should be applied so that no American has to
worry about how much longer official government persecution will continue. Thus,
South Bay respectfully submits that this Court should order that, in response to the
COVID-19 pandemic, “[n]either a state nor the Federal Government can . . . force nor
influence a person to . . . remain away from church against his will[.]” Everson, 330
U.S. at 15.
CONCLUSION
Never before in the history of this country has any American ever been told
that you cannot walk into a church because you might transmit a virus. That is the
time in which we live, but even in times such as these, “[t]he First Amendment does
not allow our leaders to decide which rights to honor and which to ignore. In law, as
in life, what’s good for the goose is good for the gander. In these troubled times,
nothing should unify the American people more than the principle that freedom for
me, but not for thee, has no place under our Constitution.” Spell v. Edwards, 962 F.3d
175, 183 (5th Cir. 2020) (Ho, J., concurring).
Indeed, “[h]istory reveals that the initial steps in the erosion of individual
rights are usually excused on the basis of an ‘emergency’ or threat to the public. But
the ultimate strength of our constitutional guarantees lies in the unhesitating
application in times of crisis and tranquility alike.” United States v. Bell, 464 F.2d
667, 676 (2d Cir. 1972) (Mansfield, J., concurring). Thus, for the foregoing reasons,
Applicants South Bay United Pentecostal Church and Bishop Arthur Hodges III

18

respectfully request that this Court grant their extraordinary application for a writ
of injunction, protecting both their rights and the rights of all Californians of faith.
As the trial court sagely observed in Burfitt: “It is important to note that almost
all of the entities that are allowed to host indoor operations do not engage in activity
that is constitutionally protected, whereas houses of worship do.” Burfitt, No. BCV20-102267, at *2. No matter what the severity of this pandemic, churches, whose
activities are protected under the Free Exercise Clause, must be afforded at least the
same degree of operational freedom as businesses that enjoy no such protection yet
have the favor of the wayward Governor of California.

Dated: Jan. 29, 2021
Respectfully submitted,

__________________________
CHARLES S. LiMANDRI
Counsel of Record
PAUL M. JONNA
JEFFREY M. TRISSELL
LiMANDRI & JONNA LLP
P.O. Box 9120
Rancho Santa Fe, CA 92067
(858) 759-9930
cslimandri@limandri.com
pjonna@limandri.com
jtrissell@limandri.com
THOMAS BREJCHA
PETER BREEN
CHRISTOPHER A. FERRARA
THOMAS MORE SOCIETY
309 W. Washington Street
19

Suite 1250
Chicago, IL 60606
(312) 782-1680
tbrejcha@thomasmoresociety.org
pbreen@thomasmoresociety.org
cferrara@thomasmoresociety.org
HARMEET K. DHILLON
MARK P. MEUSER
DHILLON LAW GROUP INC.
177 Post Street, Suite 700
San Francisco, CA 94108
(415) 433-1700
harmeet@dhillonlaw.com
mmeuser@dhillonlaw.com
Counsel for Applicants South Bay United Pentecostal
Church and Bishop Arthur Hodges III

20

